TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improved Cellular Telephone Inventory
                    Controls Resulted in Significant Savings


                                         December 2005

                              Reference Number: 2006-20-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            December 19, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improved Cellular Telephone Inventory Controls
                             Resulted in Significant Savings (Audit # 200620004)

 This report presents the results of our follow-up review of the cellular telephone inventory
 controls. The overall objective of this review was to evaluate the effectiveness of corrective
 actions taken by the Internal Revenue Service (IRS) in response to a recommendation in a prior
 Treasury Inspector General for Tax Administration (TIGTA) report that the IRS complete a
 physical inventory of its cellular telephones and ensure service is immediately discontinued for
 cellular telephones that are not registered in the IRS’ national cellular telephone inventory
 database.1

 Synopsis
 The Enterprise Networks organization is responsible for providing all forms of electronic
 communications (e.g., voice, data, video, and wireless) in the most efficient and effective
 manner. Since 1993, several audits of the IRS’ telecommunications program conducted by the
 TIGTA, formerly the Inspection function of the IRS, reported control weaknesses with the
 management of the cellular telephone inventory.2 In September 2004, we recommended the IRS
 establish a complete and accurate inventory of its cellular telephones and ensure service is
 immediately discontinued for unregistered cellular telephones. IRS management responded that
 service for unregistered cellular telephones would be terminated as of December 31, 2004, and

 1
   Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
 and Monitored (Reference Number 2004-20-156, dated September 2004).
 2
   Review of the Service’s Controls Over Voice Telecommunications Charges (Reference Number 034908, dated
 September 1, 1993), Monitoring of Long Distance and Cellular Telephone Costs Continues to Need Improvement
 (Reference Number 2001-20-171, dated September 2001), and Controls Over the Telecommunications Programs
 Continue to Need Improvement (Reference Number 2002-20-198, dated September 2002).
                          Improved Cellular Telephone Inventory Controls
                                 Resulted in Significant Savings



cellular telephones will be validated annually. At the conclusion of the 2004 annual validation
process, the IRS terminated service for 2,908 cellular telephone numbers that were not validated.
The validation process resulted in cost savings of approximately $1.4 million annually in cellular
telephone service charges to the IRS (see Appendix IV). On October 17, 2005, the Chief
Information Officer announced the 2005 annual validation of cellular telephones. This
validation process is to be conducted annually to maintain a complete and accurate inventory and
ensure the efficient use of resources.

Recommendations
Because the corrective actions taken by the IRS addressed the previously reported control
weaknesses in managing the cellular telephone inventory, we are making no recommendations in
this report.

Response
IRS management agreed with the discussion draft report and outcome measure. Because the
report contains no recommendations, we did not issue a draft report. Management’s complete
response to the discussion draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                 2
                                    Improved Cellular Telephone Inventory Controls
                                           Resulted in Significant Savings




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          Implemented Controls Improved Accountability of Cellular
          Telephones and Resulted in Significant Cost Savings....................................Page 2

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 4
          Appendix II – Major Contributors to This Report ..........................................Page 5
          Appendix III – Report Distribution List .........................................................Page 6
          Appendix IV – Outcome Measures.................................................................Page 7
          Appendix V – Management’s Response to the Discussion Draft Report.......Page 8
                             Improved Cellular Telephone Inventory Controls
                                    Resulted in Significant Savings




                                          Background

One of the Internal Revenue Service (IRS) goals in the IRS Strategic Plan 2005 – 2009 is to
modernize the IRS through its people, processes, and technology. In support of this strategy, the
mission of the Enterprise Networks organization is to provide all forms of electronic
communications (e.g., voice, data, video, and wireless) in the most efficient and effective
manner.
Since 1993, the Treasury Inspector General for Tax Administration, formerly the Inspection
function of the IRS, has performed several audits of the IRS’ telecommunications program and
reported control weaknesses with the management of the cellular telephone inventory.1 In
response, the IRS mandated that, effective August 1, 2002, all new requests for cellular
telephones be made using the electronic ordering system for wireless devices to establish a
current inventory of cellular telephones. In addition, all IRS employees who were assigned a
cellular telephone prior to implementation of the automated process were required to register
their telephones on the Wireless web site by September 1, 2002. Current cellular telephone
holders were warned that, if they did not timely register their cellular telephones, their service
would be discontinued.
However, we reported in September 2004 that, while the IRS had established an automated
process to improve the management of its cellular telephone inventory, an accurate inventory of
cellular telephones had still not been established and service was not being cancelled for those
employees who failed to register their cellular telephones.2 We recommended the IRS establish a
complete and accurate inventory of its cellular telephones and ensure service is immediately
discontinued for unregistered cellular telephones. IRS management responded that service for
unregistered cellular telephones would be terminated as of December 31, 2004, and cellular
telephones will be validated annually.
This review was performed at the IRS National Headquarters in New Carrollton, Maryland, in
the Enterprise Networks organization during the period October through November 2005. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.


1
  Review of the Service’s Controls Over Voice Telecommunications Charges (Reference Number 034908, dated
September 1, 1993), Monitoring of Long Distance and Cellular Telephone Costs Continues to Need Improvement
(Reference Number 2001-20-171, dated September 2001), and Controls Over the Telecommunications
Programs Continue to Need Improvement (Reference Number 2002-20-198, dated September 2002).
2
  Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
and Monitored (Reference Number 2004-20-156, dated September 2004).
                                                                                                     Page 1
                           Improved Cellular Telephone Inventory Controls
                                  Resulted in Significant Savings




                                  Results of Review

Implemented Controls Improved Accountability of Cellular
Telephones and Resulted in Significant Cost Savings
Office of Management and Budget Circular A-123, Management Accountability and Control,
requires managers to maintain appropriate, cost-effective controls over the agency’s financial
resources and assets to improve the accountability and effectiveness of Federal Government
programs and operations. Specifically, it requires agency managers to establish management
controls that provide reasonable assurance that assets are safeguarded against waste, loss,
unauthorized use, and misappropriation.
On August 5, 2004, the Chief Information Officer issued a memorandum requiring all users of
IRS cellular telephones to validate their telephones by September 30, 2004. To validate a
cellular telephone number, each user was required to enter information on the Wireless web site,
including his or her name; job title; work address; manager’s name; and the cellular telephone
make, model, telephone number, and service provider. By matching the cellular telephone
numbers on the IRS’ monthly bills against the numbers in the Wireless web site inventory, the
IRS would identify nonvalidated numbers and suspend service effective October 22, 2004. If the
suspended numbers were not validated by December 29, 2004, the service for the cellular
telephones would be terminated.
At the conclusion of the 2004 annual validation process, the IRS terminated service for
2,908 cellular telephone numbers that were not validated by December 29, 2004, as required.
Figure 1 reflects that the IRS will save approximately $1.4 million annually as a result of the
validation process (see Appendix IV).
                                Figure 1: Annual Cost Savings
                Service      Cellular Telephone        Annual Service   Annual Cost
               Provider     Numbers Terminated           Plan Cost        Savings
              Cingular                 760                   $480          $364,800
              Nextel                   663                   $480          $318,240
              Verizon                1,485                   $480          $712,800
              Totals                 2,908                               $1,395,840

              Annual Cost Savings Computed Over 5 Years                  $6,979,200
             Source: IRS Enterprise Networks organization.

                                                                                            Page 2
                         Improved Cellular Telephone Inventory Controls
                                Resulted in Significant Savings



On October 17, 2005, the Chief Information Officer announced the 2005 annual validation of
cellular telephones. This validation process is to be conducted annually to maintain a complete
and accurate inventory of cellular telephones and to ensure the efficient use of resources. The
implementation of these controls by the Enterprise Networks organization has improved the
accountability of the cellular telephones and resulted in significant cost savings. Because the
corrective actions taken by the IRS addressed the previously reported control weaknesses in
managing the cellular telephone inventory, we are making no recommendations in this report.




                                                                                          Page 3
                            Improved Cellular Telephone Inventory Controls
                                   Resulted in Significant Savings



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of corrective actions taken
by the Internal Revenue Service (IRS) in response to a recommendation in a prior Treasury
Inspector General for Tax Administration report that the IRS complete a physical inventory of its
cellular telephones and ensure service is immediately discontinued for cellular telephones that
are not registered in the IRS’ national cellular telephone inventory database.1 To accomplish this
objective, we interviewed Enterprise Networks organization staff, reviewed documentation
supporting that the inventory of cellular telephones was completed and service was terminated
for the unregistered telephones, and identified the annual costs savings.




1
 Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
and Monitored (Reference Number 2004-20-156, dated September 2004).
                                                                                                    Page 4
                        Improved Cellular Telephone Inventory Controls
                               Resulted in Significant Savings



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Senior Auditor
Olivia DeBerry, Auditor
Suzanne Noland, Auditor




                                                                                         Page 5
                        Improved Cellular Telephone Inventory Controls
                               Resulted in Significant Savings



                                                                              Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Director, Stakeholder Management OS:CIO:SM
Associate Chief Information Officer, Enterprise Networks OS:CIO:I:EN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Associate Chief Information Officer, Enterprise Networks OS:CIO:I:EN
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 6
                            Improved Cellular Telephone Inventory Controls
                                   Resulted in Significant Savings



                                                                                         Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Cost Savings, Recommendations That Funds Be Put to Better Use – Actual; $6,979,200
    (see page 2).

Methodology Used to Measure the Reported Benefit:

In September 2004, we reported the Internal Revenue Service (IRS) had not established an
accurate inventory of cellular telephones and cellular telephone service was not being cancelled
for employees who failed to register their cellular telephones.1 We recommended the IRS
establish a complete and accurate inventory of its cellular telephones and ensure service is
immediately discontinued for unregistered cellular telephones. At the time the report was issued,
the IRS was unable to provide information identifying the total inventory of cellular telephones,
approximate number of unregistered cellular telephones, or total costs for services. As a result,
we did not claim an outcome measure in the original report. In December 2004, the IRS
completed the validation process and terminated service for 2,908 cellular telephone numbers
that were not validated. The validation process will result in cost savings of $6,979,200 (annual
cost savings of $1,395,840 computed over 5 years) in cellular telephone service charges to the
IRS.




1
 Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
and Monitored (Reference Number 2004-20-156, dated September 2004).
                                                                                                    Page 7
  Improved Cellular Telephone Inventory Controls
         Resulted in Significant Savings



                                            Appendix V

Management’s Response to the
   Discussion Draft Report




                                                   Page 8
